<html>
<title> - THE BURDEN OF THE ESTATE TAX ON FAMILY BUSINESSES AND FARMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      THE BURDEN OF THE ESTATE TAX
                     ON FAMILY BUSINESSES AND FARMS

=======================================================================

                                 HEARING

                               before the

                SUBCOMMITTEE ON SELECT REVENUE MEASURES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 2015

                               __________

                          Serial No. 114-TP01

                               __________

         Printed for the use of the Committee on Ways and Means




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-195                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                      COMMITTEE ON WAYS AND MEANS

                     PAUL RYAN, Wisconsin, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan,
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
DEVIN NUNES, California              JIM McDERMOTT, Washington
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
CHARLES W. BOUSTANY, Jr., Louisiana  XAVIER BECERRA, California
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
TOM PRICE, Georgia                   MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
AARON SCHOCK, Illinois               RON KIND, Wisconsin
LYNN JENKINS, Kansas                 BILL PASCRELL, Jr., New Jersey
ERIK PAULSEN, Minnesota              JOSEPH CROWLEY, New York
KENNY MARCHANT, Texas                DANNY DAVIS, Illinois
DIANE BLACK, Tennessee               LINDA SANCHEZ, California
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri

                       Joyce Myer, Staff Director

         Janice Mays, Minority Chief Counsel and Staff Director

                                 ______

                Subcommittee on Select Revenue Measures

                DAVID G. REICHERT, Washington, Chairman

PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
ERIK PAULSEN, Minnesota              JOHN B. LARSON, Connecticut
TOM REED, New York                   LINDA SANCHEZ, California
TODD YOUNG, Indiana                  MIKE THOMPSON, California
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio









                            C O N T E N T S

                               __________
                                                                   Page

Advisory of March 18, 2015 announcing the hearing................     2

                               WITNESSES

Mr. Brandon Whitt, Batey Farms...................................     6
Mr. Robert E. McKnight, McKnight Ranch Co........................    12
Ms. Karen Madonia, Chief Financial Officer, Illco, Inc...........    18
Ms. Ray Madoff, Professor, Boston College Law School.............    24

                       SUBMISSIONS FOR THE RECORD

Associated Builders and Contractors, Inc. ABC, statement.........   191
American Farm Bureau Federation, AFBF, statement.................   192
Independent Electrical Contractors, IEC, statement...............   198
National Grocers Association, NGA, statement.....................   200
National Lumber and Building Material Dealers Association, 
  NLBMDA, statement..............................................   202
Small Business Legislative Council, SBLC, statement..............   204
Tire Industry Association, TIA, statement........................   209
 
                      THE BURDEN OF THE ESTATE TAX
                     ON FAMILY BUSINESSES AND FARMS

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

             U.S. House of Representatives,
                       Committee on Ways and Means,
                    Subcommittee on Select Revenue Measures
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:11 a.m. in 
Room 1310 Longworth House Office Building, the Honorable David 
Reichert [Chairman of the Subcommittee] presiding.
    [The advisory of the hearing follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
                                 <F-dash>

    Chairman REICHERT. Good morning, and now we have entered 
into the subcommittee hearing on the burden of the estate tax 
on family business and farms.
    Today, as we consider the burdens family businesses and 
farms face planning for and paying the estate tax, or, as it is 
more commonly known, the death tax, we will have the 
opportunity to hear from witnesses who have experienced this 
challenge first-hand.
    Thank you to our guests and our witnesses for joining us 
today for this important hearing, and for sharing your stories.
    The story is the same in all of our districts, I would 
imagine: family businesses, business owners, and farmers work 
hard their entire lives with the goal of passing on the fruits 
of their labor, but face the sometimes insurmountable burden 
and hurdle of the death tax. And, in addition to the actual tax 
liability the death tax imposes, merely planning for it, 
regardless of whether these businesspeople and farmers end up 
owing it, is yet another challenge that we will hear and 
discuss today.
    In fact, as I am sure many of my colleagues have also 
heard, I consistently hear from local businesses about how this 
unnecessary tax threatens the livelihood of families. In my 
home state there are numerous examples of the harmful impact of 
the death tax.
    In Seattle, permanent relief from the death tax is critical 
for family-owned businesses like the Seattle Times, which is a 
fourth and fifth-generation family business. And, in my own 
district, in Issaquah, Washington last year, a family had to 
make the difficult choice to sell their farm which had been in 
the family for over 120 years. This is a devastating decision 
to have to make, and they are not alone in making it.
    I thank Congressman Kevin Brady for his work to provide 
much-needed permanent relief to families across the country, 
I'm proud to be a cosponsor of this legislation to repeal the 
death tax once and for all. I look forward to hearing from 
today's witnesses this important issue.
    Chairman REICHERT. Mr. Neal, would you like to make an 
opening statement?
    Mr. NEAL. Thank you very much, Mr. Chairman. And thank you 
for calling the topic today before us. I want to also 
congratulate you on becoming the chairman of the Subcommittee. 
As you know, being chairman of this Subcommittee leads to great 
thing. Former alumni include Chairman Camp, Chairman 
Rostenkowski, and Chairman Rangel. And former Chairman Tiberi 
isn't so bad, either.
    [Laughter.]
    Mr. NEAL. Speaking of which, I have enjoyed working with 
your predecessor, and I look forward to working with you.
    We are here this morning to discuss the estate tax, which, 
for all the recent histrionics around the topic, has been, in 
one form or another, a part of the Tax Code since the days of 
our founding fathers. Whether used by John Adams to defend our 
democracy against a foreign threat, or by Lincoln to unite us, 
an inheritance tax has been recognized as a legitimate way to 
fund government operations and prevent concentrations of 
wealth.
    While the estate tax, or the inheritance tax, is necessary 
to fund the government, perhaps more importantly, the estate 
tax is necessary to our democracy. As our founding fathers 
observed, you simply cannot have democracy in a nation with 
extreme economic inequality and wealth concentrated in the 
hands of the very few. Mr. Jefferson noted, citing Adam Smith, 
that ``A power to dispose of the states forever is manifestly 
absurd; the earth and the fullness of it belongs to every 
generation, and the preceding one can have no right to bind it 
upon posterity.''
    Such extension of property is quite unnatural. There is no 
point more difficult to account for than the right we conceive 
men to have to dispose of their goods after death. This 
sentiment has been adopted in various forms throughout our 
history by different Americans.
    One might remember that it was Theodore Roosevelt who was 
the first president to recommend a steep, graduated tax on 
inheritance. He, in fact, invited to the White House those to 
inform them that he was about to do it. More recently, Warren 
Buffett, George Soros, and Bill Gates, Sr. have all come out in 
strong support of maintaining a robust estate tax to prevent a 
concentration of wealth.
    Today's hearing is an important one in this ongoing debate 
about the necessity of the estate tax. Today's panelists 
represent wide-ranging views on the topic, and each should have 
their views heard. Some of the small businesses, farms, and 
farmers represented here today have legitimate concerns about 
being able to make ends meet. And, as I understand it, many 
farmers and small businesses find themselves asset rich but 
cash poor. Combines, tractors, and plows are not cheap, and are 
big investments that farmers rely upon to grow their business.
    So, I should point out that I think that there ought to be 
a way for this Subcommittee to recommend and for the full 
committee to embrace a notion providing some relief to farmers, 
if we can figure out how to do that specifically, so that the 
family maintains the interest. And I think that that is an 
opportunity that we perhaps could find common ground on.
    I would remind my colleagues, as we proceed to the 
suggestion that we should repeal the estate tax in its 
entirety, we serve in the House of Representatives, not the 
House of Lords. And I think that that is a noteworthy example 
of what happens over time, if we are not careful about the 
concentration of wealth for those who miss the opportunity to 
present Steve Jobs or Bill Gates, Jr., as well.
    Congress has recognized the plight of these businesses, and 
we have enacted numerous provisions to help our nation's 
farmers and small businesses, whether through generous 
expensing rules or accelerated bonus depreciation, both of 
which I have supported. I think that this was in addition to 
raising the thresholds on the estate and the gift tax. We have 
gone from a $1 million exemption with a top rate of 55 percent 
to a $5 million exemption indexed for inflation, with a top 
rate of 40 percent. While our nation's farmers and small 
businesses have legitimate concerns about the estate tax, it is 
my hope that this argument this morning is not being used for 
the purpose of ending the estate tax for simply America's 
wealthiest people.
    The facts seemingly bear this out. As the Tax Policy Center 
recently revealed, only 20 small businesses and farm estates 
nationwide owed any estate tax in 2013. Furthermore, they point 
out that that estimate of those 20 estates owed just 4.9 
percent of their value in tax, on average. This trend to small 
business and former levels also corresponds for all taxpayers, 
as well. As Joint Tax has pointed out, in 2013 there were 2.6 
million deaths in the United States, and 4,700 estate tax 
returns reporting some tax liability were filed. This means 
99.85 percent of all estates owed no estate tax at all. By 
comparison, in the mid-1970s, taxable estate returns exceeded 6 
percent of all deaths.
    Mr. Chairman, I would like to thank you for calling this 
hearing. I look forward to the discussion and hearing from our 
witnesses, and to seek ways to improve our current estate tax.
    Remember, the estate tax is not a tax on Conrad Hilton. The 
estate tax is a tax on Paris Hilton. And, incidentally, who 
could be against that?
    [Laughter.]
    Mr. NEAL. And I call that up because I think that is a 
noteworthy example of what would happen if we broadly repealed 
the entire estate tax. And thank you, Mr. Chairman.
    Chairman REICHERT. Thank you, Mr. Neal. Before I introduce 
today's witnesses, I ask unanimous consent that all Members' 
written statements be included in the record.
    [No response.]
    Chairman REICHERT. Without objection, so ordered.
    We will now turn to our panel of distinguished witnesses. 
And I would like to welcome, first, Mr. Brandon Whitt of Batey 
Farms in Murfreesboro, Tennessee; second, Mr. Bobby Knight, 
owner and operator of--I am sorry, McKnight--of McKnight Ranch 
Company in Fort Davis, Texas; and third, Ms. Karen--help me.
    Ms. MADONIA. Madonia.
    Chairman REICHERT. Madonia? A chief financial officer of 
Illco Company, a family-owned Chicago-area distributor of 
heating, ventilation, air conditioning, and refrigeration 
equipment parts and supplies. And, fourth, Professor Ray Madoff 
of the Boston College Law School in Newton Center, 
Massachusetts.
    Thank you all for joining us today. You will each have five 
minutes to present your oral testimony, and your full written 
testimony has been submitted for the record.
    Mr. Whitt, we will start with you. You are recognized for 
five minutes.

            STATEMENT OF BRANDON WHITT, BATEY FARMS

    Mr. WHITT. Good morning. I certainly appreciate the 
opportunity to be here. And Chairman Reichert and Ranking 
Member Neal, and Members of the Subcommittee, my name is 
Brandon Whitt. I operate a seventh-generation farm in 
Murfreesboro, Tennessee, where I farm with my wife, Katherine, 
and my father-in-law, John.
    In a suburbanized area just outside of Nashville, Batey 
Farms dates back to 1807. Beginning from a Revolutionary War 
land grant for military service, over its 208 years the farm 
has seen many faces, developments, victories, and certainly 
failures. But one thing remains constant: we have strived to 
uphold the principle of our family motto of preserving the past 
and embracing the future.
    Batey Farms is a very diverse--and includes a market that 
sells fruits, vegetables, and pork we produce directly to 
consumers. In addition, we farm 1,800 acres of row crops, and 
250 acres of hay on our own land, and land we rent from 
neighboring land owners. My wife and I manage the day-to-day 
operation of our farm business, while my father-in-law, who 
still works daily alongside me, owns the land that we farm. We 
employ one full-time employee, two part-time, and over a dozen 
seasonal workers. Over 65,000 customers pass through our farm 
gate annually, and we are currently investing to expand our 
agritourism attractions, so that our more--so that more of our 
urban neighbors will visit and make a connection to modern-day 
agriculture.
    When my wife's grandmother passed away in 1998, my father-
in-law, who had farmed the land for his entire life, was faced 
with a big--with a huge estate tax burden. The farm, at the 
time, was a little over 600 acres. Land values were booming, 
and the value of the farm had doubled over the previous 10 
years. John ended up having to sell a large portion of the land 
to pay estate taxes. This may not sound like much of a 
sacrifice, giving up 120 acres, but it left him with 483 acres 
to farm, and it completely changed the farm business. The land 
was lost to development. And having houses so close to our 
fields and the remaining land, it made it impossible [sic] to 
continue raising cattle.
    Fast-forward to today. We still farm that same land. Only 
now it is easily valued at more than $25,000 per acre. Some 
might say that we should sell out, start over somewhere else. 
But this is not my family's plan. We believe that Batey Farms 
will be a viable farm business far into the future, and we hope 
that our children will be the eighth generation to farm our 
land. We believe that our farm adds value to our town, to our 
neighbors, and value to the open space that our customers have 
value--for a local food source, and that our farm market 
creates a sense of community. We intend to honor our motto, and 
continue our farming business as long as we are able to.
    My father-in-law, John, is now 72 years old. As we look to 
the future, we can't help but worry about what will happen when 
he passes away. We have spent countless hours talking with 
financial advisors, accountants, and attorneys, trying to put 
together a plan that will allow Batey Farms to remain a viable 
business. We know that we will face an estate tax when my 
father-in-law dies, and we are planning now to try to avoid 
having to sell more acres to pay the tax. I can't help but 
think about what our farm might be if we could have invested 
all that time and energy into our own business.
    My story is the story of young farmers all across the 
country. Agriculture certainly looks different on farms from 
state to state. But we all face the same reality that an 
uncertain tomorrow can bring. We face decisions about making 
long-term investments on our farms and ranches, without the 
benefit of knowing the price we will be paid for our products. 
We deal with unpredictable weather that can change a good year 
into a bad one with a single storm.
    There isn't much we can do about these risks. They are a 
normal part of the uncertainty that goes along with farming. 
But why should uncertainties over estate taxes be added to 
these others? Our job is hard enough, as it is. I urge Congress 
to abolish the federal estate tax, so that farms like mine can 
better use their resources to build a stronger business, and a 
better community. I urge Congress to act quickly to end estate 
taxes, so that no further farmer or rancher has to sell part of 
their business to pay this misguided tax.
    Thank you very much for the opportunity to be here.
    [The prepared statement of Mr. Whitt follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <F-dash>

    Chairman REICHERT. Thank you, Mr. Whitt.
    Mr. McKnight, you are recognized for five minutes.

                STATEMENT OF ROBERT E. MCKNIGHT,
                     MCKNIGHT RANCH COMPANY

    Mr. MCKNIGHT. Thank you, Chairman Reichert, Ranking Member 
Neal. I appreciate the opportunity to be here today. My name is 
Bob McKnight, a seventh-generation cattleman from Fort Davis, 
Texas, and certainly my privilege to appear before this 
Committee today to speak on behalf of the cattlemen and women 
across this country to discuss an uncomfortable issue that too 
many of us have had to deal with, that being the death tax.
    I am here to share my story today, so hopefully we can 
leave with a better understanding of the personal impact this 
has on families like mine and many like mine. Having dealt with 
the death tax on multiple occasions, I can assure you it is not 
easy to settle the estate of a loved one while mourning the 
loss of that loved one. And then, to find out that estate is 
subject to the death tax is pretty tough. How will I pay the 
estate tax? We are going to have to sell off part of our 
business, take out a loan, layoffs. These are all tough 
questions I had to face when confronted with the death tax. 
And, unfortunately, this story is more common than it should 
be.
    As a cattleman, the most important part of our family's 
livelihood is the health and safety of our livestock. Every day 
myself, our employees, we go out and put the needs of our 
livestock ahead of our own. Cattle don't take a day off; we 
can't, either. I am financially and emotionally invested in the 
success of this operation. And I have a responsibility which I 
take very seriously, and that is the care for the animals and 
the people that work for us.
    Our ranch is a family-owned small business located in 
Southwest Texas. Like other small businesses, we have the 
worries of making payroll, complying with numerous federal/
state regulations, bills, loans, taxes. I face the same 
stresses every business owner out there faces, plus we have to 
deal with Mother Nature. We never know what she has in store 
for us.
    In recent years our ranch and others have been ravaged by 
wildfires while in the throes of a drought of historic 
proportion. Many in Texas have been forced to liquidate their 
herds--in some cases, their entire operation. The exodus of 
cattle out of Texas is unprecedented. We have had some rains. 
The country is going to take time to heal. To get back to our 
historic numbers is going to take some time. I think we are up 
to the task, but it is going to take a little time.
    When times have been lean, we have had to make sacrifices 
to keep our business above water, keep our employees on the 
ranch. But sometimes you run out of places to cut, and you have 
to make real hard choices. And that means laying off season 
employees. This is exactly what happened to our family, 
precipitated by the death tax. I had to let go of season 
employees, and they had to seek work elsewhere.
    The skill set that we need on our agriculture operations is 
very unique, and it takes years to develop. And when you lose 
that skill set, it is difficult, if not impossible, to replace 
it. I would give anything to have those guys back. But, 
unfortunately, I don't believe that is going to happen.
    Many farmers and ranchers have had the same experience with 
the death tax. And, even with the current exemption levels, I 
believe there is a lot of angst out there with these rising 
land values: Is it going to trigger a death tax?
    That is why many families, I think it is imperative they 
continue to invest in planning and complying with the estate 
tax. And, unfortunately, that money used to do that comes off 
the top. It is after-tax money spent on investing, rather than 
investing in your company. And, even with an estate plan, the 
best estate plans, it takes years to transfer. And, again, 
compliance is not free.
    As someone who has been on the negative end of the death 
tax, I just have one question: What are the positive benefits 
of the death tax? When faced with a death tax, I am no longer 
thinking about how I am going to grow my business, hire more 
employees. I am focused on where I am going to have to cut. Are 
we going to have to liquidate? Are we going to have layoffs? 
How are we going to control this loss? I would rather focus on 
expanding our business, reinvesting in our community by 
creating more jobs.
    The death tax impacts more than just my family. It affects 
our employees and the family businesses around us. In the small 
rural communities of Texas, these family ranches have support 
businesses all around them. And when you are feeling it, I can 
tell you it runs through the whole community, and it is pretty 
tough.
    The death tax is a death warrant for far too many 
businesses. I feel the best solution, the fair solution, is a 
repeal of the death tax. Thank you.
    [The prepared statement of Mr. McKnight follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>

    Chairman REICHERT. Thank you, Mr. McKnight.
    Ms. Madonia, you are recognized for five minutes.

  STATEMENT OF KAREN MADONIA, CHIEF FINANCIAL OFFICER, ILLCO, 
                          INCORPORATED

    Ms. MADONIA. Chairman Reichert, Ranking Member Neal, and 
Members of the Subcommittee on Select Revenue Measures--my name 
is Karen Madonia, and I am the chief financial officer of 
Illco, a Chicago-area distributor of heating, ventilation, air 
conditioning, and refrigeration equipment parts and supplies. 
Thank you for giving me the opportunity to talk about the 
estate tax and its effect on family businesses.
    As background, Illco was a very small company when my dad 
bought it in 1973. At that time he was 32 years old with a 
wife, 3 daughters, and a mortgage, but he knew he wanted more 
than just a job. He wanted to create something permanent, to be 
in control of his own destiny. With help from my grandfather, 
my dad took a risk and went into business for himself. In those 
early years he worked every job at the company, 7 days a week, 
10 to 12 hours a day. But his passion for the industry, his 
commitment to his employees, and his drive to grow his company 
kept him pushing forward. And 40 years later, he has a business 
that employs 97 people in 3 states, and generates $42 million 
in revenue.
    My sisters and I grew up understanding that if we wanted to 
be successful at anything, we had to work hard and stay focused 
on our goals. We are proud to work alongside our dad now, and 
look forward to making our own mark on the family business in 
the coming years. There is also a generation behind us just 
beginning to consider career options. Perhaps some of them will 
join us; that is certainly my hope. But after years of 
listening to us struggle to figure out how to grow the business 
while navigating the estate tax waters, I imagine all of them 
will think twice before making that leap.
    Proponents of the estate tax will tell you that it prevents 
the concentrated accumulation of wealth in our country. They 
will tell you that our nation needs to increase taxes on the 
wealthy, because they need to pay their fair share. On the 
surface, that is a pretty safe argument to make. It is easy to 
say the solution to our fiscal issues is to increase the burden 
on those who can afford it the most. But what is fair about 
paying taxes your whole life, only to have to pay even more at 
death, simply because you are leaving a business behind?
    What is always overlooked is the effect of the estate tax 
on the family business. In most cases, we are not talking about 
passing on bank accounts with multi-million-dollar balances. We 
are talking about businesses where most of the net worth is 
tied up in inventory, accounts receivable, equipment, and real 
estate.
    At Illco, for example, we carry an inventory valued at $12 
million and an accounts receivable of about 5 million. Our 
inventory has to be high. We provide vital heating, cooling, 
and refrigeration parts and supplies to hospitals, schools, 
nursing homes, and grocery stores. And when that equipment 
breaks down, it needs to be fixed immediately.
    After paying our taxes and making our annual profit-sharing 
contribution, the income that is left is put back into the 
company so we can continue to carry an extensive inventory, 
extend payment terms to our customers, and maintain our fleet 
and our buildings. If something happened to my dad, and we were 
left with a large estate tax bill, we would have to choose 
between shutting down branches, laying off workers, or 
liquidating inventory, just to be able to pay a tax bill that 
only occurred because an owner died.
    Over the last few years, my dad has spent countless hours 
and entirely too much money trying to figure out how his 
company can outlive him. Instead of focusing on growing his 
business, he has had to strategize about how to pass his 
company on to his kids without having to dismantle it. Most of 
our strategic management decisions, whether they are about day-
to-day operations or opportunities to expand, involve 
consideration of the estate tax in one way or another.
    We have opted to maintain a large cash reserve as a 
precaution. Other companies choose to protect themselves by 
purchasing insurance. Either way, money that could be used to 
grow and create jobs is sitting on the sidelines. The estate 
tax is a huge road block to successful family businesses 
undergoing generational transfers. Think about that: Perhaps 
the greatest challenge in transitioning a business from one 
generation to the next is our own Tax Code.
    Small business owners take huge risks at great personal 
sacrifice, and they truly are the backbone of the American 
economy. No one is asking for it to be easy. In fact, my dad 
would probably be the first one to tell you that overcoming the 
challenges is probably the most rewarding part of owning your 
own business. But it shouldn't be the case that the thing that 
keeps you up at night is the worry that you may leave your kids 
with a huge tax burden when you die.
    I believe that most people would be proponents of an 
overhaul to our Tax Code. There probably are too many 
exemptions and loopholes that only upper-income taxpayers can 
take advantage of, and those topics are worthy of a national 
conversation. But taxing the estates of successful 
entrepreneurs is punitive, and that is not the role our Tax 
Code should play.
    Two years ago, when Congress last addressed the issue of 
the estate tax, you gave the small business community some 
certainty by establishing an exemption and indexing it to 
inflation. While we still maintained that full repeal was the 
right answer, we appreciated that you understood that 
constantly changing the rules made it impossible for us to 
properly plan for the future of our businesses. I respectfully 
ask that you again carefully consider all the ramifications of 
estate tax policy, and then vote once and for all to 
permanently repeal the estate tax.
    It is time to encourage families to create wealth by 
starting their own businesses, not threaten to take it away 
from them if the government thinks they have accumulated too 
much.
    Thank you for the opportunity to share my family story with 
you.
    [The prepared statement of Ms. Madonia follows:]
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <F-dash>

    Chairman REICHERT. Thank you, Ms. Madonia.
    Ms. Madoff, you are recognized for five minutes.

              STATEMENT OF RAY MADOFF, PROFESSOR,
                   BOSTON COLLEGE LAW SCHOOL

    Ms. MADOFF. Thank you. Chairman Reichert, Ranking Member 
Neal, Members of the Subcommittee, my name is Ray Madoff, and I 
am a professor at Boston College Law School, specializing in 
estate planning and tax policy. Thank you for inviting me to 
testify today, and for holding this hearing.
    In my comments today, I would like to start by briefly 
addressing the family farm and business issue, and then take 
the bulk of my time to talk about the important role of the 
estate tax, and the serious costs of repeal.
    As other witnesses have testified this morning, family 
farms and businesses are an important part of our society. And 
I believe that we should do what we can to protect them. We 
have some protections in place already. We have a large, $10 
million exemption and provisions allowing taxes to be paid over 
15 years. But if these are not sufficient, Congress should 
address the situation with targeted solutions.
    There are two possibilities that are pretty easy: one would 
be to lift the cap from Section 2032(a), allowing special 
valuation for land would help our farmers here; or, revive 
Section 2057, but instead, provide an unlimited exemption for 
family businesses and farms, insofar as they are operated by 
family members. We have the statutes in place; we can easily 
enact them.
    However, over 90 percent of the assets subject to the 
estate tax are assets other than closely-held businesses. And 
the family farm and business issue should not serve as a decoy 
to hide the true beneficiaries of estate tax repeal, especially 
given the value of the estate tax and the cost of repeal.
    The estate tax plays a critical role, in terms of promoting 
fairness in our tax system, because it provides a counter-
weight to the extraordinary income tax benefits given to those 
with inherited wealth. Our income tax system favors taxpayers 
with inherited wealth in two important ways.
    First, inherited income is entirely excluded from the 
income tax system. A person who inherits $100,000 or $100 
million is treated the same for tax purposes as a person who 
inherits nothing. This failure to tax inherited income is 
particularly glaring, in comparison to the taxes imposed on 
workers, who are subject to income taxes of up to 39.6 percent, 
and payroll taxes of up to 15.3 percent. Because of this 
difference, a construction worker who earns $60,000 after taxes 
gets less than $44,000. But if another individual inherits 
$60,000, she gets to enjoy that $60,000 entirely undiminished 
by taxes.
    Second, those who inherit wealth also get to avoid capital 
gains taxes due to the step-up in basis at death. Consider the 
case of a person who had invested $20,000 in Apple stock in the 
1980s. If that person died in 2015, the stock would be worth 
over $4 million at the time of death. But, under our current 
income tax system, no one will ever pay taxes on that $4 
million of gain. This extraordinary benefit is only afforded 
those who obtain property by inheritance, not by any other way.
    The estate tax also provides a valuable source of revenue 
for the government. While some say it isn't very much, there is 
still a lot that can be done with $270 billion over 10 years, 
including things like fully funding school nutrition programs, 
which would provide nutritious meals to 31 million children a 
day, or funding the program for free community college tuition 
that would benefit more than 9 million students, which could be 
funded 5 times over with this money. Even if the goal is to 
reduce the size of government, surely there are other taxpayers 
more in need of a tax break than the heirs of fortunes of over 
$10 million.
    In addition to the cost of foregone revenue, the repeal of 
the estate tax would impose other burdens as well. Most 
importantly, it would increase wealth inequality, as the 
financial benefit of repeal would flow to America's wealthiest 
families.
    Moreover, these families are likely to hold on to the 
wealth, as estate planners have perfected the art of protecting 
inherited wealth in perpetuity, through the creation of dynasty 
trusts.
    Wealth inequality is not just a product of the market, but 
it is significantly affected by the government policies, 
especially tax policies, that allocate societal resources. Over 
the course of much of the 20th century, these policies resulted 
in a strengthening of the middle class. However, since the 
1980s, wealth inequality has grown considerably, particularly 
among those who would most benefit from estate tax repeal: the 
wealthiest one-tenth of one percent of the population. In 
2010--in 2012, that tiny sliver of Americans, those with $20 
million or more, owned the same amount of wealth as that which 
is owned by 90 percent of the population. Estate tax repeal 
would exacerbate this concentration of wealth.
    Wealth inequality threatens democracy. Both Thomas 
Jefferson and John Adams expressed their concern about the risk 
to democracy that could result from extreme wealth inequality.
    Wealth inequality also hurts the economy. Studies 
persistently show that high concentrations of wealth correlate 
with poor economic performance.
    Finally, repeal of the estate tax could have a devastating 
impact on our charitable sector. We count on our charitable 
sector to finance education, health care, scientific research, 
art, the social safety net. And the estate tax charitable 
deduction encourages charitable giving. And though the result 
would not be intended, it is quite likely that repeal of the 
estate tax would reduce charitable giving. Though it is 
difficult to quantify this impact, even a small reduction in 
charitable giving could prove devastating to the sector, and to 
the individuals that it serves.
    Thank you again for inviting me to testify today. I am 
happy to answer any questions that you might have. And I hope 
that my comments are helpful to the committee as it considers 
this very important issue.
    Chairman REICHERT. Thank you, Professor, for your 
testimony. Thank you all for your testimony. And I am sure 
Members of the Subcommittee have a few questions for you. And I 
will begin with Ms. Madonia.
    You have highlighted several elements of your business that 
make estate planning difficult, including inventories and the 
capital-intensive nature of your business. Is this typical for 
businesses in your industry?
    Ms. MADONIA. Yes, very typical. I mentioned in my testimony 
that we----
    Chairman REICHERT. Microphone.
    Ms. MADONIA [continuing]. I am sorry. The parts that we 
sell--refrigeration, heating, air conditioning--if a 
refrigeration unit goes out in a grocery store, you have a 
limited amount of time before that food is lost. If the air 
conditioning system goes out in a hospital, you got to get that 
up and running pretty quick, so that patients can be taken care 
of.
    So, we have to carry a pretty heavy inventory. When 
customers come in to buy something, we have to have it on the 
shelf, so they can walk out the door with it. And then there 
are trucks, buildings, and warehouse equipment--there is a huge 
capital investment in our industry, yes.
    Chairman REICHERT. Would you say that the death tax is a 
general concern for those businesses that do similar work that 
you do?
    Ms. MADONIA. Absolutely. We----
    Mr. THOMPSON. Estate tax. It's not the death tax. It's the 
estate tax.
    Chairman REICHERT. Pardon me? Estate tax, yes, I am sorry.
    Ms. MADONIA [continuing]. Yes. We come to Washington every 
year with our trade association, and this is always the first 
issue because it is an industry made up of a lot of small 
family businesses. And, yes, it is top on our list every year.
    Chairman REICHERT. What is the membership of your 
association?
    Ms. MADONIA. It is Heating, Air-Conditioning and 
Refrigeration Distributors, and there are between 450 and 500 
members.
    Chairman REICHERT. Okay, thank you. Mr. Whitt, it appears 
from your testimony that Batey Farms is facing several 
pressures that are changing how you farm, including increasing 
land values due to expansion of Nashville. Would you say that 
Batey Farms is typical, in having to struggle with increasing 
land values, and the changing nature of farming?
    Mr. WHITT. Absolutely, Chairman Reichert. You know, we are, 
fortunately, on the outskirts of urban life, which provide many 
opportunities for our farm to connect consumers to agriculture 
today. Unfortunately, that comes with an extremely large 
increase in land value.
    Sure, it would be great to sell out and move somewhere 
else, and go buy 10 times the land, but that was never our 
intent to do so. We want to have that connection in our own 
personal community to share our story, to provide agriculture 
to our community. I don't see--you know, estate tax in our case 
is going to be a huge problem for us, because of that increase 
in land value over the last several years.
    Chairman REICHERT. You touched on this in your testimony, 
but again I will give you an opportunity to sort of amplify 
your answer a little bit. Is this driving an even greater 
concern about the death tax than in years past for American 
farmers?
    Mr. WHITT. Absolutely.
    Chairman REICHERT. And----
    Mr. WHITT. As land value--not only our personal farm, but 
land values in general continue to increase. So our question 
is, you know, when and if things happen to that family member 
now, what is going to happen? Because that death, what kind of 
bill are we going to be facing because of the death? And are we 
going to be able to hold on to that business?
    You know, unfortunately, the only value we have is in land. 
I can assure you that my investment into my community through 
my expenses far outweighs my accumulation of wealth that I 
accumulate on my farm.
    Chairman REICHERT [continuing]. Okay, thank you.
    Mr. McKnight, you said in your testimony that you are a 
seventh-generation rancher. Is that common among ranchers, to 
have that kind of a history?
    Mr. McKNIGHT. In lots of Texas and across the country, yes. 
These are old ranches that have been put together through a lot 
of hard work, and it is generations just adding to it and 
adding to it. And you get to a point to where the death tax--
estate tax, I am sorry--can be very tough. But, yes, these 
ranches weren't put together in a day. It is generations of 
hard work.
    Chairman REICHERT. And you know a lot of these seventh-
generation, fifth-generation----
    Mr. McKNIGHT. Seven is a long time. I know multi-
generational families, yes----
    Chairman REICHERT [continuing]. Multi-generational 
families----
    Mr. McKNIGHT [continuing]. Three, four, five, yes, 
absolutely.
    Chairman REICHERT [continuing]. Would you say that the 
pressures you are facing are typical for ranchers across the 
United States?
    Mr. McKNIGHT. Absolutely.
    Chairman REICHERT. And is the death tax a constant source 
of concern?
    Mr. McKNIGHT. Absolutely. Yes, sir.
    Chairman REICHERT. Mr. Neal, you are recognized.
    Mr. NEAL. Thank you, Mr. Chairman. Professor Madoff, some 
have argued that Congress should repeal the estate tax because 
it serves as a double tax on income. Could you shed some light 
on that argument?
    Ms. MADOFF. Yes. I think the double tax argument is one of 
the real misunderstandings about how the tax system works.
    There are three things that are important to recognize. 
First of all, the bulk of assets that pass at death have never 
been subject to tax, because they are appreciated capital 
assets. And, due to the step up in basis at death that I talked 
about earlier, that wealth has never been taxed.
    In addition, double taxation doesn't really capture 
anything, because there is no principle that money that has 
been taxed to one person shouldn't be taxed to another person. 
If I earn money and I pay taxes on it, and then I pay money to 
my mechanic for fixing my car, my mechanic can't say, ``Hey, 
that income has already been taxed when Madoff earned it.'' 
Each taxpayer has to pay taxes.
    In addition, taxpayers often pay taxes, multiple types of 
taxes. You pay income taxes, payroll taxes, sales taxes, 
property taxes. There is no principle of double taxation, 
avoiding double taxation, in the tax system.
    Mr. NEAL. Mr. Whitt, based on your testimony, if we were 
able to find a way to address the land issue that you have 
spoken to specifically, would that satisfy the notion that we 
could accommodate you without repealing the entire estate tax?
    Mr. WHITT. Well, I believe, unfortunately, then, in some 
cases, yes, it could. But I think, when we look at the 
difference between farms and small businesses all across this 
country, where do we set that limit, there is always going to 
be winners and losers in that case. And, without full repeal, I 
don't see how we can be fair to McKnight and unfair to me, just 
because of the differences in our businesses.
    Mr. NEAL. I would say that that is the nature of the tax 
system, though. There are winners and losers in the tax system. 
I think we all subscribe to that basic premise, that, as you 
try to shift the Tax Code around, that it is like squeezing 
toothpaste with the cap on.
    Mr. WHITT. Well, I don't understand why he should have to 
sell part of his business, just because he is over an 
exemption. Why should he have to sell his business? It is as 
detrimental to him to sell part of his business, just because 
he is over a limit and I am under.
    Mr. NEAL. Okay. Now, just a reminder of what this Committee 
has done, the full Ways and Means Committee has done, now, 
just--and it is March. We have already proposed, over the 
objections of some of us, $317 billion in tax cuts, unpaid for. 
And the proposal here, if this were to take place, would add 
$270 more billion dollars to tax cuts, unpaid for. So, that 
means that this Committee, in full, well into early April, 
before tax-filing season, will have proposed $587 billion worth 
of tax cuts that are unpaid for.
    Now, let me tie that to this argument. That means that we 
will be proposing $587 billion in tax cuts, and only $567 
billion of defense spending. So the same people that will argue 
here we should increase defense spending, including the 
President, will simultaneously argue that we should cut taxes 
by $587 billion. And I would submit, as good as the arguments 
are that you have all made this morning, there isn't anybody 
here who could run a family farm or business based upon the 
premise that has been offered by this Committee.
    So, part of this is messaging that you are hearing today, 
and I understand that. People make arguments, and you want to, 
obviously, get those arguments to conform to a policy at some 
position. But we should not miss the fundamental point that 
these tax cuts, if they were to be put in place, mean that 
somebody else has to pay. Because, as Mr. Whitt has correctly 
noted, as you move the items around in the Tax Code, then there 
are those that will pay, and there are those that will pay 
less.
    The argument that most of us hold today is that we should 
not remove the estate tax for the wealthiest Americans, based 
upon this notion that, by proffering some relief to the small 
family farmer, who has a legitimate argument here today, that 
we should cut taxes for Paris Hilton.
    Chairman REICHERT. Thank you, Mr. Neal. Mr. Tiberi, you are 
recognized.
    Mr. TIBERI. Thank you, Mr. Chairman. Great testimony. Wow. 
Mr. Neal, I love you, because you----
    Mr. NEAL. I will be able to put that on my campaign 
brochure.
    [Laughter.]
    Mr. TIBERI [continuing]. Well, you might not want to. And 
the reason why is because he is trying to come to yes, in terms 
of trying to fix the problem, except for the end of your 
statement, with respect to tax cuts, in all due respect, from 
my perspective, because we can, in this place, not pay for a 
trillion-dollar spending bill, but then we have to pay for tax 
cuts.
    My dad--you love it when I talk about my dad, don't you? My 
dad, when I was 16 years old, first job at McDonald's, said, 
``We have a crazy tax system.'' Sixth-grade education, 
immigrant to America. ``You get taxed when you earn it, you get 
taxed when you save it, which is crazy''--this is my immigrant 
father--``because it discourages you from saving, and then you 
get taxed when you die, if you happen to save it, and try to 
invest it, and try to get a nest egg for your family.''
    Mr. NEAL. Would----
    Mr. TIBERI. The debate that we have----
    Mr. NEAL [continuing]. Would the gentleman yield?
    Mr. TIBERI [continuing]. at the end of my statement, I 
would be happy to. But the debate that we just heard is 
fabulous, because it is like a debate that I have with my 
friends who run conservative or liberal think tanks. You have 
got reality, and you have got theory.
    And what I loved about the three of your testimonies,' who 
are living in the real world today, is that you are dealing 
with this today. It is not theory. And you are not living 
Warren Buffett's life. You are not living Bill Gates's life. 
You are living a life, and your statement about your father was 
awesome, awesome. Because what is so great about America is 
that my mom and dad taught me that with hard work and a little 
luck and a little bit of elbow grease, you can actually 
accomplish something in America.
    The Tax Code often times makes really weird--or makes 
people make weird choices, and it does create winners and 
losers. But the reality is--I have talked to people in Central 
Ohio--because of this Tax Code, they spend so much time trying 
to think--and money.
    I had a guy tell me, second-generation trying to become a 
third-generation family-owned car dealership, $50 million in 
inventory on his lot. He doesn't have a private jet; he doesn't 
have Warren Buffett's issues. He is trying to run a business, 
trying to hire more employees, trying to pass a business on to 
his son, and he is spending more time and money--that he could 
otherwise use to hire more people--trying to make sure the 
business doesn't have to be sold if he dies, or when he dies, 
which is what you all said.
    So, I appreciate the fact that we are trying to figure out 
the family farm. But with all due respect to the two of you, it 
is more than the family farm. It is that third-generation 
business.
    I talked to a business guy who sold his business to his 
employees, which I think is great, by the way--ESOP, great in 
Ohio, great in Minnesota, you support it. But one of the 
reasons why he did it was because of the estate tax law. But 
this is before we passed the $5 million exemption. And his son 
is still involved in the business, and so is his daughter, but 
they are no longer the owners. They are part of the ownership 
team. But that was a decision made, in part, because of our tax 
law.
    So, I appreciate the fact that you three came here and 
testified today, and really, really applaud you. This is hard. 
And this place--it is hard to get things done. But you 
represent why I believe Mr. Brady's legislation is the right 
thing to do.
    Ms. Madonia, can you just go into one other issue, or 
expand on it? In terms of the subject of the death tax, and the 
exemptions that you talked about, can you go into that a little 
bit further?
    Ms. MADONIA. Yes. We spent a lot of time in our family 
talking about the estate tax, and we have got this generation 
of kids. There are eight--my dad has eight grandchildren, and 
several of them are in school or have graduated from school 
with business degrees with some hopes, I hope, of coming to 
work for us. But this is an issue that we have talked about 
around our family tables for years, trying to--where my dad has 
been trying to figure out the best way for him to continue to 
grow the company and still preserve it for us.
    We watched him our whole lives, we watched my dad work, you 
know, 10 to 12 hours a day, literally. He would--when he first 
bought the business, he would make the deliveries, and he would 
work the counter. At 5:00 he would go into his office and do 
receivables and payables. He did all of it. And we watched him 
struggle through all that. And to watch him try and figure out 
how he can pass it on to us, and let us make our mark on it 
without having to dismantle part of it is, really, just 
heartbreaking.
    Mr. TIBERI. Thank you.
    Chairman REICHERT. Thank you, Mr. Tiberi. Ms. Sanchez, you 
get to follow Mr. Tiberi.
    Ms. SANCHEZ. Thank you, Mr. Chairman, and thank you to all 
of our witnesses for joining us here today.
    The estate tax was originally instituted to ensure that the 
very wealthiest families, those who have benefitted from the 
greatness of this country, and the opportunities available in 
the economy, could contribute back to that system, so that 
others would also have those opportunities and chances to 
succeed. And, over time, Congress has whittled away much of the 
fairness that was in that system. So much so that, now, 99.85 
percent of estates--99.85 percent of estates--are now exempt 
from paying any estate tax, whatsoever.
    If the existing exemptions and special provisions for 
family farms and true small businesses aren't enough right now, 
then let's specifically look at that. Because I am willing to 
work on that. I heard your testimony; I very much sympathize 
with your testimony. I understand the desire to keep things 
running in a family business. I get that, I get the hardships 
that you guys encounter. But let's not throw the entire baby 
out with the bath water and say we are going to eliminate the 
estate tax, all together.
    This nation was founded on the principles that if you work 
hard and you put your sweat equity into something, everybody 
has an opportunity to earn their wealth, their status, and 
their privilege. We don't believe in an aristocracy, or that it 
is a good societal thing for dynasties to hoard their wealth 
and leave the rest to fight over the crumbs. That is just not 
how this country was founded.
    But we have a paradox here in this country, where we think 
you should work hard to get where you are because work, by its 
very nature, and being productive, is very good. But, by the 
same token, everybody wants to make enough money to where they 
can retire and not have to work. And they want to preserve 
increasingly larger and larger chunks of their wealth. And that 
is why I am a little bit baffled why this Subcommittee is 
focusing on our time on how we can be doing more, quite 
frankly, for that last .15 percent of Americans.
    But, you know, maybe I shouldn't be that surprised. After 
all, we have seen proposals in the federal budget that gut 
anti-poverty programs affecting the most vulnerable in our 
society, seniors, children, and people with disabilities.
    And there has been a long debate--we have had several 
debates in the preceding two congresses--over means testing 
eligibility for a variety of programs that help poor and low-
income families. We all agree that our federal dollars are 
valuable, they are scarce. And means testing can be a tool in 
helping to make sure that federal dollars are being spent in 
the most efficient way, and targeted to the populations that 
are truly deserving and most in need.
    But one of the more recent Republican priorities has been a 
drug test as a precursor to some of these means-tested 
programs. Drug testing is an irrelevant requirement with 
respect to whether or not a person is poor enough to qualify 
for help in feeding her family, and yet they want to add those 
additional burdens on to folks that need help the most. And 
that is done under the guise of protecting the integrity of 
those programs, as a way to weed out those who are truly 
deserving from that benefit, and those who aren't. And, again, 
that is the issue of drug testing.
    I find it interesting that some of those same rules don't 
apply to the scarce federal dollars that are being talked about 
today to be used for additional tax cuts, again, for people who 
are not just scraping to get by. And one current example is--
you know, I am a working mom--a single mother who works to make 
ends meet. Why is it that she should be drug tested--which is 
an unrelated requirement--to receive assistance, food 
assistance, to make sure that her family has enough to eat, and 
people who are lucky enough to inherit millions of dollars are 
literally required to do nothing to get the federal tax benefit 
with their inheritance?
    So, my first question is for Professor Madoff. You are an 
expert--I am sorry. You are an expert on estate tax law, and 
you write the legal practice guides that most estate planners 
use in order to do estate planning. What work requirements are 
there to inherit up to $10 million tax-free?
    Ms. MADOFF. There are no requirements to get that benefit 
under the law. We have a preference in our tax system for 
inherited wealth over wealth earned by wages, so that somebody 
who inherits 10 million pays no inheritance taxes, they pay no 
income taxes. They pay no payroll taxes.
    And, moreover, they don't even have to tell the Federal 
Government that they have received $10 million. The government 
seems not to be interested in those flows of wealth, even if 
that were to come from a distant relative, you know, money 
lands on your lap--lucky you, you get it. It is the only income 
that we don't subject to tax. It is, you know, very--we have a 
very broad definition of income, and it is very odd that we 
just give inherited wealth a free pass. And if we repeal the 
estate tax, then it is completely free--it makes no sense at 
all.
    Ms. SANCHEZ. Professor Madoff, is there any really good--if 
I could just ask this question, and I will take the answer in 
writing--is there really any good policy reason for a bias that 
is in favor of inherited wealth, versus the wealth that an 
individual accumulates through their own hard work and sweat 
and tears?
    Ms. MADOFF. I don't think so.
    Ms. SANCHEZ. Thank you. I yield----
    [The prepared statement of Ms. Madoff follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <F-dash>

    Chairman REICHERT. Well, that is quick and short, thank 
you.
    Mr. Paulsen, you are recognized.
    Mr. PAULSEN. Thank you, Mr. Chairman. Boy, some really 
great testimony. I just really appreciate hearing your 
perspective, your story, your real-world experience of what you 
are having to live with, and the successes you have built.
    You know, you hear a lot of statistics about how the estate 
tax might only affect large companies or businesses, and maybe 
just a few wealthy individuals. But I can certainly tell you 
that is not the case of the folks I have talked to, some family 
businesses in Minnesota similar to what you have expressed 
today. I have spoken to Minnesota farmers; I spoke to Minnesota 
family business owners who have had their family livelihoods 
threatened with the death tax right on the horizon.
    I remember I met with an individual just two weeks ago, and 
he has got millions of dollars locked up that he would love to 
invest that capital to hiring more people, jobs, et cetera, 
expansion, but he has got to work with the Tax Code, he has got 
to plan for the future, all these accounts, all these lawyers, 
and then plan for all these contingency plans, and it is just 
sitting on the sidelines.
    And, you know, there is one company, Ms. Madonia, it is a 
company that is just like yours. And it is Johnstone Supply. It 
is an HVAC company in Minnesota, equipment wholesaler in 
Bloomington. It is a prime example of how detrimental this tax 
can be for family business. And, unlike a lot of large 
corporations, it is these small businesses that have a high 
level of assets, but a very low level of liquidity. Right? 
Farming is the exact same situation. And Johnstone, for 
example, they own a few buildings, they carry that high level 
of inventory, but it has relatively little working capital.
    But when the family started looking at transferring 
ownership to the next generation, they realized that they were 
going to have to pay--they were having huge liquidity problems 
when it came to paying these estate taxes. And they found that 
the only way that they were going to be able to afford the 
taxes was to sell off a portion of the business, or to purchase 
a substantial life insurance policy. And that, because of the 
uncertainty surrounding the estate tax--the company started 
about 30 years ago--they never knew how much life insurance was 
needed in order to help cover the cost of the tax.
    So, when it became clear how big the burden was actually 
going to be, the cost of insurance at the age of the family 
members was substantial, it was huge. And, due to the 
circumstances, then, the next generation of the family was 
forced to purchase this Minnesota company, which, in turn, has 
caused them to become highly leveraged, put the company at 
risk, and they actually consider themselves very lucky to have 
found a bank that was willing to actually do the deal. But 
because his family still owns some companies in some other 
states, they have been forced to spend about 20 percent of 
their net income on life insurance to fund their future estate 
obligations.
    Now, this is money that could otherwise be reinvested in 
the company, reinvested in the business in their community, and 
put towards growing the company. But the money is locked up. 
And this isn't a family that is trying to evade taxes. They are 
not trying to escape taxes. They simply want to keep the 
business afloat, and in the family for other generations. And 
so, the Tax Code is literally forcing them, essentially, to 
consider breaking up the family business. And that is jobs 
lost. That is layoffs, and that is the wrong direction.
    So, Ms. Madonia, I just want to follow up a little bit. It 
brings me to the question of how--what options do family 
businesses like yours or like Johnstone Supply really have when 
it comes to the estate tax today? And what does repeal mean for 
expanding operations, for increasing sales, for creating jobs? 
Would it make your business stronger?
    Ms. MADONIA. Yes, absolutely. And, for the record, 
Johnstone Supply is also a HARDI member, so we know that--I 
know those folks well.
    Yes, the statistic about the--only affecting a small 
fraction of estates, I think in large part that is probably 
because people spend a lot of money trying to figure out how to 
preserve their company without having to pay that tax. So, if 
you--I don't have a number. I wish I had a number. I wish there 
was some way to kind of capture that statistic on how much 
money is spent every year on hiring accountants and lawyers to 
try and figure out how you could--how you can, you know, pass 
your company on.
    In our case, I know that we sit on a lot of cash, and we do 
that purposefully, because my dad is in his seventies. And, 
while it wouldn't be enough cash to pay the estate tax if we 
got hit with it, it would help us a little bit. And that money 
could very easily be used to hire more people, to start a new 
branch, to get into new equipment lines, or add another vendor 
to our list of preferred vendors. It could be used for a lot of 
things. Buy more trucks. And it is not being used for that, 
because it is sort of earmarked as ``just in case'' money.
    Mr. PAULSEN. And what really comes out in your testimony? I 
think of your father sitting around the table, planning for the 
future. It is not about some aristocracy, or passing this on 
for family wealth. It is about keeping a company afloat, and 
living that American Dream for other generations and for 
other--having many more jobs, many more employees. That is a 
big part of our economy, that is the engine of our economy, is 
many small businesses, just like yours.
    Ms. MADONIA. Yes.
    Mr. PAULSEN. I yield back, Mr. Chairman.
    Chairman REICHERT. Thank you. Mr. Kelly, you are 
recognized.
    Mr. KELLY. Thank you, Mr. Chairman. I thank you all for 
testifying. I never sat in those seats, but I have sat in 
something similar to yours. First of all, Ms. Madonia, we are 
not talking about passing on your estate to Madonna, the 
singer. We are talking about Karen Madonia, who is in a 
business.
    And, Mr. McKnight and Mr. Whitt, in addition to what you 
are doing on an everyday basis--I am an automobile dealer--you 
are also tax collectors, aren't you? You guys, when you pay 
people wages, whether it is the mechanic that worked on your 
car, or somebody that works in your fields, or somebody that 
works on your farm equipment, or somebody that does whatever 
they do for it, don't you pay wage taxes? Yes. So, we collect 
taxes. I just wish it was only double taxation. I could live 
with being taxed twice. I can't live with being taxed to death, 
and then even--you can't even die without paying taxes, because 
of a government that can't stop spending your money.
    And so, when we talk about this great loss of revenue, what 
we are talking about is leaving the money in the pockets of the 
people who earned it, not the people who burned it. And I am 
just--I am fascinated, as you go through this--how--look at 208 
years your family has been in this business. The contributions 
to your community over the years? I don't think you could put 
it in dollars and cents, could you?
    Just in some of the taxes, just talk about some of the 
taxes you pay.
    Mr. WHITT. Well, of course, obviously, our business is 
small, we don't employ a whole lot, but we--give you an 
example--we sell over a quarter million dollars of pork 
products a year that we pay sales tax on. We pay sales tax for 
all the products that we sell out of our retail locations. We 
pay our employees' payroll taxes. So, you know, it is not like 
we are sitting back, raking in the money, and never paying any 
taxes out.
    And it would be fascinating to go back and see the benefit 
that our family businesses had on Murfreesboro, the town of 
Murfreesboro, over the last 208 years.
    Mr. KELLY. But just in--you don't really consider 
yourselves one of the privileged one percent, do you?
    [Laughter.]
    Mr. WHITT. Well----
    Mr. KELLY. I mean I see--here every day I see divide, 
divide, divide, divide. It is always, ``the wealthy, the 
wealthy, the wealthy.'' And I watch what you are doing. I got 
to tell you, this is incredible, the amount of income, the 
amount that you put back into your communities. I mean, what 
you have done, over 208 yards--years, the Batey Farms have 
employed people, have paid federal withholding tax, have 
collected taxes, wage taxes that--by the way, Social Security, 
Medicare--all of those things are collected by you and then 
sent to the government for their distribution.
    Mr. McKnight, same thing. You are seventh generation.
    Mr. McKNIGHT. Yes. And just to tell you a little about our 
story, about the time I got out of college, certainly not 
familiar with the estate tax, but my grandfather and great-
uncle were the principals in our family business. My father and 
aunt were--the uncle had no children, so basically it was like 
they had two fathers. About the time I got out of school, my 
grandfather passed away, followed by my great-uncle's dad, 
followed by my grandmother's death a little later. My dad 
contracted Parkinson's during this time, and we lost him in 
2004.
    So, basically, the first 24 years of my working career 
there was never a day I didn't have to deal with the estate 
tax, planning it. It was--basically, I was a government 
employee with no benefits, you know? And during those 24 years 
I watched two-and-a-half generations of hard work, sweat, and 
savings evaporate. And that wasn't enough. We had to go in and 
liquidate twice. And in a cattle operation, those liquidations 
are very risky. We were able to get through it, but we had good 
weather, and we made it through that. But even at that point, 
there was still a liquidity problem, and that is when we had 
the layoffs.
    And, unfortunately, I think a lot of these layoffs are the 
forgotten casualty of this punitive tax. And the biggest 
expense, though--again, I got out of school. I didn't come home 
to grow smaller. We came home to get bigger. We wanted to be 
part of the solution, not the problem. The loss of 
opportunities in those 24 years, I can't enumerate that. And 
the last six years is the first time I have had the freedom to 
go to work and just concentrate on our family business.
    Again, I don't know what the positive aspects of this tax 
are.
    Mr. KELLY. Well, it is becoming very unpatriotic to die.
    [Laughter.]
    Mr. KELLY. Because at that point you go off the tax rolls. 
We found a way to even get to you after you are laid to rest.
    Ms. Madonia, I mean, tell me. I mean, your story is the 
story of so many people across America. And I am serious about 
this. We keep talking about the super-wealthy. Mr. Paulsen hit 
on it. You talk about assets that aren't liquid; I am an 
automobile dealer, too. So I get a little bit concerned about 
that. We have spent more time and more money trying to figure 
out how to maintain a family business that my dad started in 
1953 after being a parts picker. This guy did not inherit great 
wealth. He worked to accumulate something, he passed it on. I 
had to buy it from him, it wasn't left to me in his will, by 
the way, so I have been paying taxes my whole life.
    But--well, I know I am getting gaveled, but listen. Thank 
you for being here today. God bless you. Don't give up the 
fight, because we are not, either.
    Chairman REICHERT. Thank you, Mr. Kelly.
    Mr. Thompson, you are recognized.
    Mr. THOMPSON. Thank you, Mr. Chairman. Thank you all very, 
very much for being here. And I really would like to dig in and 
try and solve this problem. I think we have a responsibility, 
and not to preserve millions of dollars in tax cuts for 
billionaires and the top one percent, or however it is being 
characterized here, but we have a responsibility to make sure 
the estate tax works in a way that protects the people who 
create jobs and the family farmers, and even the family 
business owners.
    I have carried legislation in this Congress--matter of 
fact, the first bill I introduced when I was elected to 
Congress in 1998 was a bill to address this issue. And I am 
getting ready to reintroduce it again, the Family Farm 
Preservation and Conservation Tax Act, that would exempt family 
farms from paying estate tax if the farm continues in the 
family, and continues to be farmed.
    You know, if you sell it or rent it out and go live on the 
beach in Hawaii, then, you know, we ought to tax you. But we do 
need to figure out a way to preserve valuable farm land. We are 
losing it by way too much every day. We are losing ag land 
while we are sitting here today.
    And I was particularly impressed, Mr. Whitt, with your 
testimony. You brought up a lot of the issues that I bring up 
when I talk about my bill: the cost associated with protecting 
your family farm from being lost; the loss of ag land to 
development; the idea that young farmers--we are losing young 
farmers. And if we don't do something about estate tax and how 
it impacts family farms, we are going to lose more. And I don't 
think we want to do that. So I am very encouraged by the 
committee having this hearing.
    I hope we can get away from the rhetoric. It is not death 
tax, it is estate tax. And I think that was a very clever 
political strategy, but I think it has backfired, and it has 
hurt us in trying to resolve this very, very real problem.
    Ms. Madoff, I have got some questions for you. You are a 
tax attorney, correct?
    Ms. MADOFF. Mm-hmm.
    Mr. THOMPSON. Is there anything in the Tax Code that is--
refers to death tax? Is there a ``death tax''?
    Ms. MADOFF. No, there isn't.
    Mr. THOMPSON. Does anybody pay taxes after they die?
    Ms. MADOFF. No.
    Mr. THOMPSON. Okay. So you don't get called for jury duty. 
You are dead, you are dead.
    Ms. MADOFF. As they say in the Country-Western song, you 
know, ``They don't have luggage racks on hearses.''
    Mr. THOMPSON. Yes, exactly. I think it is important to 
establish that, and delve into the policy, rather than the 
politics.
    Do you think that, short of repeal, that there is a way 
that we can target a solution to deal with this issue?
    Ms. MADOFF. Absolutely. And the legislation is already 
there on our books. It has been--it is not currently active, 
but Sections [sic] 2057 could address all businesses, and 
Section 2032a could address farmers.
    And I think it is really important for this body to be 
aware that every single one of these witnesses would be better 
off with a targeted exemption than with repeal of the estate 
tax, and here is why.
    Mr. THOMPSON. Well----
    Ms. MADOFF. It--oh, sorry.
    Mr. THOMPSON [continuing]. We get it.
    Ms. MADOFF. Okay, but----
    Mr. THOMPSON. I would like to give you a copy of my 
legislation I am going to be introducing in the next week or 
so, and I would like to get your feedback on that.
    Mr. Whitt and Mr. McKnight, I have a question for you, for 
both of you. If total repeal of the estate tax isn't 
politically feasible, are you supportive of finding a way to 
protect the capital assets of family farmers and ranchers so 
their family farms can continue? Are you willing to forgo those 
protections until, if ever, the estate tax is fully eliminated?
    Mr. WHITT. That is a loaded question----
    Mr. THOMPSON. It was pretty straightforward.
    Mr. WHITT [continuing]. To be honest with you. And, you 
know, I really believe that targeted legislation, it sounds 
good on the forefront, and maybe we can help out, but there are 
a lot of rules that come along with that.
    Mr. THOMPSON. This would be pretty straightforward. It 
would say that you--if your father-in-law passes away and 
leaves you and your wife the farm, as long as you continue to 
farm it, you would be exempt from paying any taxes, any estate 
taxes.
    Mr. WHITT. If it is that simple.
    Mr. THOMPSON. Yes. So you would support something like 
that?
    Mr. McKnight, would you?
    Mr. McKNIGHT. Again, something to look at. I think the 
devil is in the details. How do you treat a rancher maybe that 
has gone out and invested in another business? Or maybe they 
are expanding through their----
    Mr. THOMPSON. I am just talking about the family farms. 
Family farms.
    Mr. McKNIGHT [continuing]. Again, if this were just--again, 
I think it is very complicated. The devil would be in the 
details----
    Mr. THOMPSON. Pretty straightforward.
    Mr. McKNIGHT. Okay.
    Mr. THOMPSON. Let me----
    Mr. McKNIGHT. If a guy has got multiple businesses--you are 
saying he would be exempt from the tax, or he would have to 
pay----
    Mr. THOMPSON [continuing]. It would be your family farm 
that would be exempt from the tax. If you own a family farm, 
and you have a bucket of gold, you still pay the estate tax on 
the bucket of gold.
    Mr. McKNIGHT [continuing]. Right.
    Mr. THOMPSON. But the family farm would be protected, if 
you keep farming.
    Mr. McKNIGHT. I think the devil would be in the details, 
how that was written.
    Mr. THOMPSON. Let me ask you. On--the American Farm Bureau 
policy manual states on page 152, ``If the''----
    Chairman REICHERT. The gentleman's time is expired.
    Mr. THOMPSON [continuing]. Mr. Chairman, I would like to 
submit for the record the policy of the American Farm Bureau, 
and the policy of the NCBA, as it relates to this issue.
    Chairman REICHERT. Without objection.
    [The information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                                 <F-dash>
                                 
                                 
                                 
    Mr. THOMPSON. Okay, thank you.
    Chairman REICHERT. Mr. Renacci, you are recognized.
    Mr. RENACCI. Thank you, Mr. Chairman. I want to thank the 
witnesses for being here. It is interesting, because, as I sat 
here and listened, there were times my blood pressure went up 
and times my blood pressure came down. I am a--was a small 
business owner, so I appreciate what you all have done. I also 
am a CPA, and I also have done estate tax planning. So I have 
seen it from all avenues, and I understand the issues that you 
are facing.
    And this, really, this hearing is about two things, in my 
opinion. It is about the orderly transfer of business interests 
upon death, and it is also about double taxation. I think those 
are the keys we should be zeroing in on.
    It is interesting, some of the issues that were brought up. 
You know, there was talk that inheritance isn't taxed. I heard 
one of the witnesses say that. Those are the exemptions of the 
inheritance. That is part of the exemption of the amount. But, 
you know, that is the rhetoric that we continue to hear, 
because there is also income that is not taxed, and that is 
because of the exemptions that you have on income tax. So there 
are pieces of taxable income that are not taxed. So, I just use 
that as we got to watch what we say when we say inheritance 
isn't taxed, because there is income tax. There is income that 
is not taxed. There is all kind of ways we can talk about this 
and look at this.
    But--and this hearing really isn't about Soros, Gates, 
Buffett, or Hilton, because, quite frankly, Soros, Gates, 
Buffett, and Hilton probably will not pay very much estate tax, 
because they have probably done enough things, whether it is 
through dynasty trusts, foundations, family partnerships, all 
those other things that they were able to do because of their 
liquid assets, they are able to, in most cases, get around much 
of the estate tax that you all have to pay.
    The question here is how do we make sure, especially when 
it comes to small businesses and family businesses, how do we 
make sure that there isn't a burden placed on you upon the--
and, again, when we talk about words, I mean, we say that there 
is no death tax. No, there is--upon death there is an estate, 
and upon the estate there is a tax. So the question is how you 
want to talk about it.
    We can get rid of all this rhetoric, and just really get 
down to the basics. How do we make sure that, in the long run, 
a business can survive and sustain itself and move forward? And 
I think if we do that--and I am glad to hear many of my 
colleagues on the other side are talking about ways of doing 
that. How can we get that accomplished? Because it is too many 
times where I have seen, back in my district, back in Ohio, 
where people with a small farm or with a small business, upon 
the death of someone, and the estate, and the estate tax, are 
not able to continue the business, because the business has to 
go up for sale because of the fixed assets, because of the 
buildings, because of the assets that are there, because of the 
farm land being valued at a certain level, all of those things.
    So, I think it is important that we look at this issue. 
But, at the same time, I also believe there is a double 
taxation, because I have seen too many times where businesses 
have come up, their business sells, they pay their tax, that 
individual now has liquid assets, and then, upon his death, 
those liquid assets go into an estate, and then those estate 
assets are then taxed at almost a 50 percent rate, and they are 
double-taxed.
    Now, the question is, should the Federal Government be able 
to take those dollars? And should the Federal Government be 
able to be part of that double taxation?
    Or, the better question is, should value continue to be 
passed on from family to family to family at a--I mean the--
again, now I will go back to Soros, Gates, Buffett, and Hilton. 
I guarantee you those individuals, if you know----
    Mr. NEAL. Will the gentleman yield?
    Mr. RENACCI [continuing]. I will, but not right now. But if 
you take Paris Hilton, the daughter, quite frankly, she is 
getting a lot of money somehow from her family. So----
    Mr. NEAL. Thank you very much.
    Mr. RENACCI [continuing]. But I will yield.
    [Laughter.]
    Mr. RENACCI. But, anyway, so, again, this continues to be a 
discussion about how we fix the problem, and how we take care 
to fix that.
    And, again, I could ask every one of the three of you--I 
mean I am sure you have all purchased fixed assets in the farm. 
I was the CPA for three farms. I understand the business. You 
probably have--I mean what is the cost of--what is--give me a 
cost of one of your pieces of equipment in your farm. A big 
one, a big one. A big----
    Mr. WHITT. The last combine price, $340,000.
    Mr. RENACCI [continuing]. Absolutely. So you got 340,000 
tied up in this. You got this large amount tied up in your 
land. All the sudden there is a death, then there is an estate, 
and there is taxation. How do you come up with those dollars? 
How are you planning on coming up with those dollars?
    Mr. WHITT. By growing the business. How does a small farm 
continue to be a small farm, with the increased values that we 
are having to pay for the equipment, the expenses that we incur 
on that farm? The only choice we have is to grow, to have more 
growth sales to compensate. We don't really make much money off 
of the products that we sell. The margins are very low. So how 
do we increase that? We sell more. We have to grow more to be 
able to purchase these things, just to run the business. It 
takes a combine--I don't think any of us want to go back out to 
the field and start hand-picking our crops. We will become very 
inefficient at that point.
    Mr. RENACCI. Thank you. My time is--I yield back.
    Chairman REICHERT. The gentleman's time is expired. Mr. 
Brady is recognized.
    Mr. BRADY. Thank you, Chairman Reichert, for permitting me 
to participate in today's important hearing. I want to thank 
the witnesses, as well. Very helpful, including my fellow 
Texan, Bobby McKnight. Like many of you, I have been fighting 
to permanently repeal the death tax since my constituents first 
sent me here to Congress.
    And I would like to echo a very important point made this 
morning. This tax is not about reducing income inequality. The 
super-rich have a legion of lawyers and all the resources in 
the world. It is not the super-rich that pay this tax; it is 
the people who are at the table today who pay this tax. This is 
the number-one reason--death tax is the number-one reason 
family-owned farms and businesses aren't passed down to the 
next generation. The number-one barrier. It is the farmer, the 
rancher, the courageous entrepreneur, family-owned business, 
whose assets are tied up in buildings and machines and property 
tax that pay the death tax. It is their spouse and children 
that have to sell the business, or parts of it, just to pay 
Uncle Sam.
    One Texas rancher I have known for a long time has paid the 
death tax three times. Her grandfather started their Texas 
cattle ranch in 1970, just a year after this tax was created. 
In 2011, her husband passed away suddenly in a tractor 
accident. The price of hay was outrageous because of the 
drought. Diesel costs were way up. She had no idea how she was 
going to continue the ranch. And the IRS swooped in, and forced 
her to sell huge chunks of cattle stock, just to pay the death 
tax, all the while she and her children are mourning the loss 
of their husband and father. Try telling that family they are 
like Paris Hilton, exactly.
    A former staffer, a young woman staffer of mine returned to 
her family ranch in Texas recently after her aunt passed away 
to help sell her estate. This was a ranch that her great-great 
grandfather had settled in the 1800s. She and her brother were 
able to keep that ranch. Guess how? They merely had to sell 
two-thirds of the ranch to keep it. So tell this young woman 
she is exactly like the robber barons of the Teddy Roosevelt-
years.
    The death tax is an immoral tax. And it is an attack on the 
American Dream. It disproportionately hurts small businesses 
and start-ups. They have already paid, as Mr. Renacci and 
others have pointed out, very high rates on it to begin with, 
and Uncle Sam swoops in and takes 40 percent of the nest egg 
they have built a lifetime trying to put together.
    And what is worse is that this tax is especially 
destructive to women and minority-owned businesses, the 
fastest-growing sector of our economy today. Harry Alfred, the 
president and CEO of the National Black Chamber of Commerce, 
goes as far as calling this tax, in his words, ``a black tax,'' 
because of its destructive effect on black-owned small 
businesses.
    A study by two Boston College professors, Professor Madoff, 
several years ago estimated that between 2001 and 2055, the 
first half of this century, the death tax will wipe out between 
11 and 15 percent of all African American wealth, 11 and 15 
percent of all African American wealth wiped out by this tax. 
This one tax alone these Boston College experts said would cost 
African American households between $192 billion and $257 
billion. This is not a decoy for the wealthy. These are real 
people.
    And imagine what that money could do if it was invested in 
education and businesses and jobs.
    So, as Members of Congress, I think we are tasked with 
making our great country better, with ensuring that we leave 
our children a better nation than the one we received. The 
death tax, I think, Mr. Chairman, betrays that oath. And so I 
urge my colleagues to work with me in eradicating this immoral 
tax once and for all.
    I know you have been given some bits and pieces. ``What if 
we do this to satisfy you?'' And, ``What if we just sort of buy 
you out of this thing?'' But the point is that Washington will 
pick winners and losers among people who have built wealth, and 
that is wrong.
    And, by the way, after the agreement was reached on the 
current estate tax levels, the President immediately turned 
around and began lowering those exemptions and raising those 
rates. And so, whatever you are promised today I guarantee you 
won't be there tomorrow.
    So, Mr. Chairman, thank you very much for having me here 
today.
    Chairman REICHERT. Thank you, Mr. Brady, and thank you for 
your hard work on this issue, and thank you for the work you 
put in to your piece of legislation. Thanks for being patient 
and staying with us today, and offering your comments.
    And just before we end the hearing----
    Mr. NEAL. Give me one----
    Chairman REICHERT [continuing]. Oh, I am sorry. We have one 
more for Mr. Neal.
    Mr. NEAL [continuing]. Thank you. Just--and thank you, Mr. 
Chairman, very helpful----
    Chairman REICHERT. Quick question from Mr. Neal.
    Mr. NEAL [continuing]. Yes. Ms. Madoff, just to follow up 
on what Mr. Thompson said, is there a good way to exempt family 
farms and small businesses from the estate tax? And would you 
develop and offer a better approach? And why?
    Ms. MADOFF. Absolutely. And it would be much better for all 
of these witnesses. So let me explain what it is.
    Section 2057 was a short-lived provision that provides--
that was designed to provide benefits, but could be made into a 
complete exemption for family businesses and farms. Section 
2032A would be for land. And the reason that this would be more 
valuable for all of these witnesses is because this body only 
controls the federal tax system. But, increasingly, states are 
turning to their own state estate tax systems, and they model 
them on the federal definition of the gross estate.
    And so, these organizations, if you repeal the federal 
estate tax, they would continue to be vulnerable to possibly 
being taxed under the state estate tax systems, which are in 
more than half the states. But if you provide an exemption for 
the definition, an exclusion from the gross estate, they would 
be protected from their states. And so it is very important. An 
exemption would be much more valuable for every single one of 
these witnesses. And I agree that they should all be protected. 
And they can easily be protected by Section 2057.
    And you have to remember this only applies to eight percent 
of the assets. Studies--numbers just came out. Eight percent of 
the assets are small business assets, ninety-two percent are 
other assets. So the numbers--we should not throw out the whole 
system because of eight percent. This eight percent is an 
important part of our economy, and should be addressed, and can 
be, easily and fairly.
    Chairman REICHERT. Thank you for your----
    Mr. NEAL. Thank you, Mr. Chairman.
    Chairman REICHERT [continuing]. Thank you, Mr. Neal. Thank 
you, Ms. Madoff.
    Mr. Reed, you are recognized.
    Mr. REED. Thank you, Mr. Chairman. And, as with Mr. 
Renacci, my blood pressure has gone up and down during the 
testimony here today.
    But I will start with this. I am getting sick and tired of 
folks down here blasting the American charitable spirit. You 
know, as I am sitting, listening to the testimony, I just 
Googled Warren Buffet. Do you know how much money he has 
estimated to be giving away? $37.4 billion. See?
    And so, Ms. Madoff, I appreciate your Utopic commitment to 
the government bureaucracy of D.C. to be able to magically 
acquire all this money that people have earned over a lifetime, 
and will go to Washington, D.C. to then have D.C. ferret out 
where it is going to go amongst the masses of the 300 million 
Americans that we call our fellow citizens.
    I believe Mr. Whitt and his family, they worked hard. Who 
owns your property?
    Mr. WHITT. My father-in-law.
    Mr. REED. Your father-in-law. You, right? Not the 
government. When you are done with your use of that land, that 
is a fundamental principle that we hold in America. You own 
that property. You earned that property.
    And if you choose to do what I think the American spirit 
and our fellow Americans do on a regular basis, it is amazing 
to me how much our fellow citizens are charitable. You look at 
Bill Gates. Look at Andrew Carnegie, one of the robber barons 
that was potentially referenced to previously in some of the 
testimony. What did Carnegie do? Carnegie invested tremendous 
amounts of money into our society, into our American society, 
and did some very positive things.
    Now, I am not going to defend every single American who may 
have ulterior motives and has an evil heart. But I will tell 
you the vast majority of Americans I know, they are good 
people. They are charitable people. And it frustrates me that 
we have a tax system that is essentially going to say, ``When 
you die, yes, we taxed your entire lifetime, but you are going 
to pay one more.'' How is that fair?
    The question you keep raising, Ms. Madoff, in your 
testimony, or your written--is a question of fairness. I would 
throw that back at you and say, ``How is it fair that 
Washington, D.C. takes your property and makes you pay a tax on 
it at your death?'' You have earned that property.
    So, as we have this conversation----
    Mr. NEAL. Mr.----
    Mr. REED [continuing]. I just----
    Mr. NEAL [continuing]. Will the gentleman yield?
    Mr. REED [continuing]. Sure, I will yield a minute.
    Mr. NEAL. If you--to throw it back at her, would you let 
her answer?
    Mr. REED. Well, I have listened to hours, and read her 
testimony. And I understand where she is going to come from on 
her testimony. And, Ms. Madoff, it is no personal disrespect to 
you, but you represent a philosophy that is very frustrating to 
me, a philosophy that your testimony speaks loud and clear to, 
ma'am. And it is a philosophy that I came to Washington in 2010 
to fight, is that I trust the individuals more to do with their 
property what is right.
    And when they work their entire lifetime, when I talk to my 
family farmers back in Western New York, and they are there on 
the eighth, seventh, sixth generation, and they are telling me, 
``You know what? When my father dies, I am going to have to 
carve up my farm to pay the tax bill''--because land isn't 
cash. That $340,000 combine that you paid--that is not cash. 
And if you have a bill that goes to the government, they want 
cash. Uncle Sam doesn't take a combine and say, ``Call it 
even.'' He wants cash. And so that is the problem.
    And then, you know what also happens? I have seen it in the 
eyes of my constituents. I have seen it in their eyes, when 
they say, ``You know what? I have to carve up my property in 
order to pay for this tax bill.'' And you know what happens? 
Farming. Do you do farming because you want to be a multi-
millionaire, Mr. Whitt? You are going to be a robber baron of 
the 21st century of making that big mega-farm across America? 
Why do you do farming?
    Mr. WHITT. Because it is an action of servitude to my 
fellow man.
    Mr. REED. Amen. It is a way of life. It is a way of life. 
And when I see the tears in the eyes of my constituents who 
say, ``All I want to do is just go out and work my land''--
``All I want to do is build my inventories in my HVAC company 
that''--I believe you have an HVAC company, right? That is all 
they want to do.
    But, no. What we are going to say is we in Washington know 
what is best to do with that money that you have earned over 
your lifetime. Send it to Washington, and then we will sprinkle 
it among the masses. I would trust Ms. Madonia, I would trust 
Mr. McKnight, and I would trust Mr. Whitt to take care of his 
fellow man in his community, in his back yard, rather than have 
this taxation system that you are talking about, Ms. Madoff.
    Ms. MADOFF. I am sorry; I guess I didn't make my testimony 
clear, because I agreed with you, that none of these people 
should have to pay an estate tax for their family businesses, 
so I entirely agree with you.
    Mr. REED. But you are going to--reclaiming my time--you are 
going to draw the line, and somebody is going to pay for it.
    And even the people that are the robber barons, like the 
Andrew Carnegies, just like Warren Buffett, $37.4 billion of 
his money going to better our fellow American citizens. And 
that is the American spirit that I love and I am committed to. 
And with that, I yield back.
    Chairman REICHERT. The gentleman's time is expired.
    While I was the chairman of the Human Resources 
Subcommittee prior to coming to the Tax Committee subcommittee, 
this is almost more emotional and compassionate than the human 
resources. I didn't think taxes were going to get this 
exciting, but you can tell that there is--there are strong 
feelings on both sides of the aisle.
    I think that you also sensed, as witnesses today, that both 
sides really understand the issue that you are dealing with, 
the taxes, the decisions that you have to make, and I think 
there was some agreement here that we need to do something.
    Now, there is disagreement as to how and what, and I 
noticed that, you know, as Mr. Thompson talked about his bill, 
he asked--his piece of legislation--Mr. Whitt and Mr. McKnight 
how they felt about it, but he didn't ask Ms. Madonia. And I 
would imagine that her answer would be a little bit different, 
since that bill only addresses family-owned farms. There are 
other businesses out there that, frankly, as we have heard 
today from Ms. Madonia, that are affected by the estate tax, or 
death tax, however you want to refer to it.
    So, I am going to come away with--this first experience as 
the chairman of this Subcommittee--with a positive feeling that 
most of us on the committee feel like we need to do something. 
And we are going to continue to work on this. And, again, I 
congratulate Mr. Brady on his bill.
    And so, today, that concludes our hearing. And I must 
advise that Members may submit written questions to the 
witnesses. Those questions and the witnesses' answers will be 
made a part of the record.
    Again, I would like to thank all the witnesses for being 
here today. Thank you for taking time out of your busy 
schedules, away from your families and your businesses, and 
thank you all for your testimony. The committee stands 
adjourned.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
